                                                                C-IN-BOR-0094-2002-A



             United States Department of the Interior

                             Office of Inspector General
                                  Washington, D.C. 20240

                                                                   March 17, 2003

Memorandum

To:        Commissioner, Bureau of Reclamation


From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Management Issues Identified During the Audit of the Bureau of
           Reclamation’s Fiscal Year 2002 Financial Statements (No. 2003-I-0037)

        We contracted with KPMG LLP, an independent certified public accounting firm,
to audit the Bureau of Reclamation’s (BOR) financial statements as of September 30,
2002 and for the year then ended. In conjunction with its audit, KPMG noted certain
matters involving internal control and other operational matters that should be brought to
management’s attention. These matters, which are discussed in the attached letter, are in
addition to those reported in KPMG’s audit report on BOR’s financial statements (Report
No. 2003-I-0020) and do not constitute reportable conditions as defined by the American
Institute of Certified Public Accountants.

       The recommendations will be referred to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation. If you have any questions
regarding KPMG’s letter, please contact me at (202) 208-5512.

       Section 5(a) of the Inspector General Act (5 U.S.C. App. 3) requires the Office of
Inspector General to list this report in its semiannual report to the Congress.



Attachment

cc:     Assistant Secretary for Water and Science
        Chief Financial Officer, Bureau of Reclamation
        Director, Office of Financial Management
        Audit Liaison Officer, Water and Science
        Audit Liaison Officer, Bureau of Reclamation
        Focus Leader for Management Control and Audit Followup,
         Office of Financial Management
                                                     AttAttachedached   Attachmnet
                                                                   ATTACHMENT
                                                            AAttached
                                                                  Attached




January 14, 2003


The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.

Ladies and Gentlemen:

We have audited the consolidated financial statements of the Bureau of Reclamation (Reclamation) as of
and for the year ended September 30, 2002 and have issued our report thereon, dated January 11, 2003. In
planning and performing our audit of the consolidated financial statements of Reclamation, we considered
internal controls over financial reporting in order to determine our audit procedures for the purpose of
expressing our opinion on the consolidated financial statements and not to provide assurance on internal
controls over financial reporting. We have not considered internal controls over financial reporting since
the date of our report.

During our audit, we noted certain matters involving internal controls over financial reporting and other
operational matters, not included in our above referenced report as material weaknesses or reportable
conditions, that are presented for your consideration. These comments and recommendations, all of which
have been discussed with the appropriate members of management, are intended to improve internal
controls over financial reporting, or result in other operating efficiencies.

1.      Revenue Recognition

        During our audit we noted that Reclamation has a significant amount of multi-year repayment
        contracts where payment is received annually or semi-annually. Revenue on these contracts is
        received on various dates during the year and revenue is recorded at the time that the amounts are
        billed. Additionally, during our testing of revenue transactions we noted one instance where
        revenue that related to fiscal year 2001 was recorded in fiscal year 2002.

        Recommendation
        We recommend that Reclamation establish a process for determining the revenue period of its
        contracts and record unearned revenue for the portion of revenue not yet earned. This treatment
        would result in revenue recognition proportionate to the passage of time or the use of the assets.
        We also recommend that Reclamation implement a process to ensure that revenue is recorded in
        the proper accounting period.

2.      Direct Funding Agreements

        During fiscal year 2002, the Office of Inspector General (OIG) performed an audit at
        Reclamation, wherein they noted that three California Water Authorities have individually
        contracted with Reclamation to perform the operation and maintenance of the conveyance, and
        conveyance pumping, facilities of the Central Valley Project (CVP) water. The Water Authorities
        have been given authority to assess and collect revenues due the government for CVP water
        deliveries to local water districts. These collections can be used by the Water Authorities to fund
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.
Page 2


       the operation and maintenance of these facilities. Under this arrangement the Water Authorities
       were required to collect and remit federal funds directly to the U.S. Treasury, however, the OIG
       noted that the current arrangement does not include sufficient controls to ensure that all revenues
       due from the water districts are collected. Also, Reclamation is not able to ensure that the Water
       Authorities accurately and consistently measure the water delivery, which would allow for a
       reconciliation check between revenue collected and water sold.

       Recommendation
       We recommend that Reclamation amend the direct funding agreements to terminate Water
       Authority designation as fiscal agents and reestablish financial mechanisms by which water
       districts would directly pay Reclamation for their water use. Also, Reclamation should reconcile
       each of the water district payments with the amounts retained and forwarded by the Water
       Authorities since the inception of the agreements, and establish a Quality Assurance Program to
       ensure the integrity of the water measurement activities.

3.     Allowance for Doubtful Accounts Receivable

       During our audit we noted that the allowance for doubtful accounts receivable was inadequate due
       to Reclamation excluding several accounts receivable status codes from the allowance calculation.
       Accounts receivable classified with these status codes that are excluded from the allowance
       calculation might result in overdue receivables not being adequately reserved for during the
       proper accounting period. Reclamation reviewed the accounts receivable excluded from the
       allowance calculation and adjusted its consolidated financial statements to allow for these
       amounts.

       Recommendation
       We recommend that Reclamation update its policies and procedures for calculating the allowance
       for doubtful accounts receivable to include the status codes that were previously excluded from
       the allowance calculation.

4.     Controls over Credit Card Authorization

       During our audit we noted that Reclamation charged approximately $62 million on credit cards
       for small purchases during fiscal year 2002. Reclamation’s credit card approval policy requires
       that approving officials approve all charges prior to paying the credit card company. Typically,
       this is accomplished by having the cardholder’s manager approve the statements of cardholders in
       a timely manner. In testing this authorization control, we noted 2 instances of a sample of 10 items
       where this approval did not occur.

       Recommendation
       We recommend that Reclamation improve controls over enforcement of credit card transaction
       approval by enforcing the policy that is in place and requiring that managers review all statements
       of Reclamation credit cardholders in a timely and thorough manner.
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.
Page 3


5.     Stewardship Investments

       During our audit we noted that Reclamation had identified the need to separate the required
       Stewardship Investment amounts into specific accounts, and report these amounts in the Required
       Supplemental Stewardship Information (RSSI) Section of its consolidated financial statements.
       However, Reclamation has not established posting routines to properly account for the
       Stewardship Investment amounts during the year at the transaction level.

       Recommendation
       We recommend that Reclamation implement posting routines to properly capture the Stewardship
       Investment amounts at the transaction level.

6.     HAZ-MAT Audits

       Reclamation is responsible for ensuring proper treatment and disposal of hazardous wastes and
       materials (HAZ-MAT) on Reclamation lands and at Reclamation-owned or operated sites. To
       ensure Reclamation complies with environmental laws and policies governing such materials,
       Reclamation’s Environmental and Planning Coordination Office, which is under the direction of
       the Office of Policy, conducts regular audits of Reclamation facilities. According to its own
       recommended requirements, the Environmental and Planning Coordination Office is responsible
       for conducting five audits of area facilities and/or audit regional work each year. This allows for
       all area offices in each region to be covered within a five-year period.

       During our audit we noted that Reclamation conducted only one audit during fiscal year 2002, and
       two additional audits prior to calendar year-end through its Environmental and Planning
       Coordination Office. We noted that Reclamation did not meet its goal due to a personnel vacancy
       in its HAZ-MAT Coordinator position. However, since this vacancy was filled toward the end of
       fiscal year 2002, three audits have been conducted, and Reclamation has established a five-year
       plan to cover the required audits.

       Recommendation
       We recommend that Reclamation’s Environmental and Planning Coordination Office complete
       five audits a year in accordance with its policy, along with any additional audits necessary to
       complete the five-year plan on a timely basis.

7.     Irrigation Assistance Revenue

       During our audit we noted that Reclamation recorded revenue from irrigation assistance during
       fiscal year 2002 that should have been recorded in fiscal year 2001. Irrigation assistance is
       collected from power customers by Power Marketing Agencies to apply to irrigation capital
       investment costs that are above the irrigators’ ability to pay. Power Marketing Agencies factor
       into the power transmission rates the amount of irrigation assistance required by law, and during
       the final year of contract repayment, remit the amount of irrigation assistance into the
       Reclamation Fund. Reclamation records the amount of the irrigation assistance as revenue in order
       to satisfy their contract repayment requirements.
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.
Page 4


       Recommendation
       We recommend that Reclamation design and implement effective internal controls, including
       improved communications with Power Marketing Agencies, to ensure revenue resulting from
       irrigation assistance is recognized and recorded in the proper fiscal year.

8.     General Property, Plant, and Equipment Disposals

       During our audit we noted that when an asset is removed from service, donated, or sold, the asset
       is properly removed from the accounting records. However, Reclamation does not properly
       account for any gain or loss on such disposals where cash is received from the disposed asset. We
       noted that the impact of the gain or loss is reflected in the consolidated statement of net cost,
       however, the amounts are not recorded in the proper lines on the consolidated financial
       statements. This accounting treatment is not consistent with current accounting standards.

       Recommendation
       We recommend that Reclamation implement procedures to ensure that the cash receipts related to
       disposed assets be properly and consistently accounted for in accordance with accounting
       principles generally accepted in the United States of America. These procedures should include
       reviews of the gain/loss standard general ledger accounts to ensure proper and consistent
       accounting treatment.

9.     Leases

       During our audit we noted that Reclamation had improperly classified one of its capital leases as
       an operating lease. This lease agreement contained a bargain purchase option, which results in
       treatment as a capital lease. Additionally, we noted that Reclamation has not established a process
       or posting routines for recording and tracking operating and capital leases.

       Recommendation
       We recommend that Reclamation implement a process to track all operating and capital leases.
       Further, Reclamation should implement procedures to ensure that leases meeting the capitalization
       criteria are recorded as capital leases in accordance with Statement of Federal Financial
       Accounting Standards No. 5, Accounting for Liabilities of the Federal Government, and track the
       lease activity using proper posting routines.
The Commissioner of the United States Bureau of Reclamation and the Inspector General
United States Department of the Interior
Washington, D.C.
Page 5


Our audit procedures are designed primarily to enable us to form an opinion on the consolidated financial
statements, and therefore may not bring to light all weaknesses in policies and procedures that may exist.
We aim, however, to use our knowledge of Reclamation’s organization gained during our work to make
comments and suggestions that we hope will be useful to you. Should you have any questions concerning
the matters presented herein, we would be pleased to discuss them with you at any time.

This report is intended for the information and use of the management of Reclamation. However, this
report is a matter of public record and its distribution is not limited.

Very truly yours,




January 14, 2003
